U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                          Census Bureau


                            2010 Census:
            The Partner Support Program
               Lacked Adequate Controls
                for Monitoring Purchases
               and Ensuring Compliance



                     Final Report No. OIG-11-013-A

                                 November 18, 2010




                   FOR PUBLIC RELEASE



                      Office of Audit and Evaluation
                                 Report In Brief
                                             U.S. Department of Commerce Office of Inspector General
                                                                November 18, 2010



Why We Did this Review               Census Bureau
As part of our ongoing oversight
of the 2010 census, the Office of    2010 Census: The Partner Support Program Lacked
Inspector General (OIG) audited
purchases made under the Partner     Adequate Controls for Monitoring Purchases and
Support Program (PSP) to deter-      Ensuring Compliance (OIG-11-013-A)
mine
(1) whether Census Bureau em-
ployees effectively managed PSP What We Found
purchases to prevent fraud, waste,
and abuse;                         While Census has several reports and systems in place to monitor purchases made for
(2) whether bureau employees         partners, few of the systems actually communicate with or reconcile to one another.
correctly followed PSP proce-        This makes it difficult for Census headquarters to track purchases over the long term.
dures; and                           Purchases that had been miscoded in some of these systems further hindered manage-
(3) whether employees responsi-      ment’s ability to monitor the program.
ble for administering the program
were adequately trained.          Some Census employees who had purchasing authority did not follow federal and
                                  Commerce acquisition guidelines and policies. For example, employees paid interme-
                                  diary vendors with the understanding that the vendor receiving the payment would for-
Background
                                  ward funds to the vendor providing the products or services. In other cases, employees
PSP was developed by the          placed and received large orders without authorization, failed to safeguard government
Census Bureau to complement
                                  purchase card account information, or did not properly document purchase details. We
the outreach efforts of Census’s
partner organizations. Partner    also discovered a potential conflict of interest between a partner and a vendor that had
organizations include government, gone undetected until several purchases had already been made.
non-profit, and corporate or com-
munity organizations that formally   Finally, purchasing for the program started later than anticipated, and the program
pledged their commitment to          changed rapidly over its lifecycle. These factors made it difficult to train Census staff
share the 2010 Census message        thoroughly and in a timely fashion. Although the bureau distributed written guidance to
and mobilize their constituents      staff, the guidance was often unclear or misunderstood by them.
in support of the bureau’s goal of
achieving a complete and accurate
count.
                                     What We Recommended
Through its partners, Census
tried to reach a wider audience of
historically “hard-to-count” demo-   The last PSP purchase was approved in May 2010. Therefore, our recommendations fo-
graphic groups. The bureau also      cus on planning for future decennials. Should Census implement a similar promotional
sought to increase mail response,    outreach program in 2020, we recommend the following:
reduce undercounting, and com-
municate a consistent message        1. Ensure that manual and automated tracking systems are fully functional and inte-
about the decennial census.             grated, and that reconciliation with the financial accounting system is in place prior
                                        to implementing the program.
Census worked with its partners
in a variety of ways to spread the 2.    Improve management oversight of purchase card purchases to identify staff non-
bureau’s message, including pur-         compliance with policies and procedures for both purchase cardholders and part-
chasing promotional items (such          nership staff.
as pens, flyers, or caps) for the
partners to distribute locally, and 3.   Conduct timely training that reemphasizes federal and Commerce acquisition rules,
participating in festivals or other      such as split purchases, conflicts of interests, and other procedural rules; and pro-
community events.                        vide manuals with updates and step-by-step processing transaction instructions.
U.S. Department of Commerce                                                                                 Final Report OIG-11-013-A
Office of Inspector General                                                                                         November 18, 2010


                                                                  Contents

Introduction ..................................................................................................................................... 1 
Findings........................................................................................................................................... 3 
   I.      Reporting and System Limitations Impeded Management’s Ability to Effectively
           Monitor Purchases .............................................................................................................. 3 
   II.  Employees Did Not Comply with Federal Acquisition and Financial Policies and
        Program Guidelines, Leading to an Increased Risk of Improper Payments ....................... 4 
   III.  Training on Procurement Processes Needs Improvement .................................................. 7 
Recommendations: Looking Ahead to 2020................................................................................... 9 
Summary of Census Comments and OIG Response..................................................................... 11 
Appendix A: Objectives, Scope, and Methodology...................................................................... 12 
Appendix B: Bureau Response ..................................................................................................... 14 
U.S. Department of Commerce                                                                  Final Report OIG-11-013-A
Office of Inspector General                                                                          November 18, 2010


                                                      Introduction

The Partner Support Program (PSP) was developed by the Census Bureau to complement the
outreach efforts of Census’s partner organizations. Partner organizations include government,
non-profit, and corporate or community organizations that have formally pledged their
commitment to share the 2010 Census message and mobilize their constituents in support of the
Census Bureau's goal of achieving a complete and accurate count. Through PSP, Census hopes
to reach a wide audience of “hard-to-count” groups,1 increase mail response, reduce differential
undercount,2 and communicate a consistent Census message.
Census recognizes that partners know their communities’ conditions and circumstances better
than the bureau does, and have the appropriate connections at the national and community level
to encourage participation in the census. In collaboration with partners who have direct access to
specific groups the bureau considers hard to count, the bureau acquires promotional items (such
as caps, tote bags, pens, posters, flyers, and t-shirts) and funds services (such as participant fees
for festivals and parades, space and equipment rental, and event planning),3 which the partners
then use to promote the Census message among populations that have traditionally been
undercounted.
The funds for this program are to be used to support the basic activities of existing partners. For
fiscal years (FYs) 2009 and 2010 the bureau allocated $24 million to this program, dividing the
funds among its 12 regional census centers (RCCs; see figure 1 on page 2) based on a score
representing enumeration difficulty. RCCs with higher scores received a larger portion of the
program’s total allocation.
Regional partnership staff work with eligible and active partners4 to identify projects and assist
the partners in completing and submitting the PSP application and funding request form.
Recognizing that partnership staff in the regions were tasked with responsibly spending a large
amount of resources in a relatively short time frame, the bureau also established a Partnership
Procurement Unit at the National Processing Center (NPC), hiring 25 new procurement staff,
called purchasing agents, and four clerks to assist regions with PSP funding requests.




1 Hard-to-count populations include but are not limited to the homeless, migrant farm workers, foreign-born individuals, African
Americans, American Indians and Alaska natives, native Hawaiians and other Pacific Islanders, and linguistically isolated
populations.
2
  The net undercount is the difference between the number of people missed and the number of people counted twice, counted in
the wrong place, or fabricated by an enumerator. The rates of undercount differ among geographic areas and between whites and
nonwhites. This racial bias in the census undercount is known as the differential undercount.
3
  Food and advertising constitute unallowable purchases for the program.
4
  Eligible partner organizations include those who demonstrate an active commitment to promote participation in the 2010
Census. As of November 18, 2009, 1,809 partners were participating in the program.



                                                               1
U.S. Department of Commerce                                          Final Report OIG-11-013-A
Office of Inspector General                                                  November 18, 2010


                        Figure 1. Regional Census Centers

                                                                             Atlanta
                                                                             Boston
                                                                             Charlotte
                                                                             Chicago
                                                                             Dallas
                                                                             Denver
                                                                             Detroit
                                                                             Kansas City
                                                                             Los Angeles
                                                                             New York
                                                                             Philadelphia
                                                                             Seattle

Source: Census Bureau website



As part of our oversight of the 2010 census, the Office of Inspector General (OIG) audited
purchases made under PSP to determine whether (1) Census Bureau employees effectively
managed PSP purchases to prevent fraud, waste, and abuse; (2) bureau employees correctly
followed PSP procedures; and (3) employees responsible for administering the program were
adequately trained. For a complete outline of our objectives, scope, and methodology, see
appendix A.
We found that (1) multiple reports and systems, coupled with incorrectly coded PSP
expenditures, made it difficult to identify the population of transactions and impeded
management’s ability to effectively monitor purchases; (2) employees did not consistently follow
acquisition and financial policies and program guidelines; and (3) training sessions were not
adequate to ensure all Census staff understood the program and its purchasing processes.




                                               2
U.S. Department of Commerce                                            Final Report OIG-11-013-A
Office of Inspector General                                                    November 18, 2010


                                            Findings


I.   Reporting and System Limitations Impeded Management’s Ability to Effectively
     Monitor Purchases
Census is required to monitor the purchases made by its employees to ensure requirements are
met and to reduce the risk of fraud, waste, and abuse. However, Census’s ability to monitor
purchases effectively was severely limited by numerous issues that resulted in incomplete or
erroneous reporting or tracking of purchases.
The bureau’s use of multiple reports and systems to track PSP purchases led to the logging of
incomplete or erroneous information. Census used a combination of two manual reports (a
weekly disbursement log and a disposition report) and six automated systems to monitor PSP
activities and capture purchase card charges and purchase orders. Because of the accelerated
schedule for implementing the program, Census chose to rely on these existing resources rather
than designate a system to aggregate and track PSP expenditures.
However, most of the reports and systems Census used do not reconcile to one another, nor do
they interface with each other or with the financial accounting system; therefore, there was no
single location from which all PSP information can be accessed. Instead, headquarters staff
compiled a worksheet from the disbursement log data sent in by the regions. But the regional
logs, which are not reconciled to a central Census Bureau system, sometimes contained errors,
were incomplete, or contained amounts inconsistent with transaction information in the
Commerce Purchase Card System (CPCS), the program used to track purchase card transactions.
The bureau should improve its outreach program purchase tracking methods for the 2020 census.
Manual and automated systems used for tracking PSP expenditures should be complete, reliable,
and updated timely. Also, subsidiary records should reconcile to information recorded in the
financial accounting system and in CPCS.
Of the $5.7 million in anticipated credit card purchases cited by the bureau, only $4.8 million
was coded as PSP purchases in CPCS, a difference of about $889,000 for FY2009. The
difference between the data tracked in the CPCS and the information from the worksheet
compiled at headquarters represents potential miscoded PSP transactions. The miscoded
transactions resulted from account codes not being updated during the monthly account
reconciliation process. Although Census sent a memorandum to RCC staff identifying the project
numbers and task codes assigned to Census decennial activities, our review of records of
approved purchase card transactions revealed that purchases were not consistently assigned the
correct project numbers and task codes. The miscoded transactions hindered management’s
ability to identify PSP purchases and increased the risk of improper spending on the program.
For the next decennial, Census’s approving officials and cardholders should have procedures in
place to ensure PSP expenditures are recorded to the correct project number and task code.
Finally, several purchase cardholders did not comply with convenience check-writing practices,
which increased the possibility of exceeding purchase limits and decreased the ability to disallow
improper transactions. In order to mitigate risk and fraud exposure, the bureau imposed a $1,000
not-to-exceed limit per convenience check. After reviewing years of data, the bureau concluded
the $1,000 limit would cover most transactions. However, Census policy allows most


                                                3
U.S. Department of Commerce                                             Final Report OIG-11-013-A
Office of Inspector General                                                     November 18, 2010


cardholders to spend up to $3,000 for a single transaction, resulting in purchasers writing
multiple checks in increments of $1,000 or less to the same payee. Additionally, since PSP
advocates the use of small businesses, some of which are unable to accept credit cards, the
bureau’s staff wrote more checks than would have ordinarily been expected. For example, we
identified seven instances in FY2009 in which purchase cardholders wrote multiple convenience
checks to the same payee on the same day, and the total paid exceeded the $3,000 single-
purchase limit.
The $1,000 limit resulted in additional costs because the servicing bank assesses a fee of 2
percent of the value of each check. Moreover, when cardholders use convenience checks instead
of purchase cards, the bureau employees responsible for monitoring purchase card transactions
lose some of the oversight tools that would otherwise help them review costs and detect
potentially unallowable transactions. To compensate for this uncertainty, the Department
requires bureaus and agencies to conduct a 100 percent audit of convenience checks, resulting in
additional cost and effort. The bureau should consider revisiting whether the $1,000-per-check
limit on convenience checks will still be sufficient to cover purchases in future outreach
programs.

II.    Employees Did Not Comply with Federal Acquisition and Financial Policies and
       Program Guidelines, Leading to an Increased Risk of Improper Payments
Direct Partner Support purchases, which partners initiate in order to effectively reach a specific
hard-to-count group, are made using government purchase cards and cannot exceed the
government’s $3,000 limit for micro-purchases. Figure 2 summarizes the bureau’s business
process for staff to follow when making Direct Partner Support purchases. By contrast, Special
Initiatives purchases, also used in PSP, are initiated by one of the RCC directors in support of
that region rather than a specific partner. Special Initiatives purchases can exceed $3,000; there
are no limits on products and services purchased, and a government purchase order can be used.


  Figure 2. Overview of the Direct Partner Support Purchase Process
 Application submitted               Application reviewed                Approved applications
                                                                         processed

      • Partnership specialists         • Regional director or a             • Cardholder notifies
        (PS) promote the                  delegate, such as an                 partner of approval,
        program to eligible               area regional Census                 orders products/services
        partner organizations             manager, reviews                     from the vendor
      • Partner organizations             applications                       • Cardholder is notified of
        complete and submit to          • RCC forwards approved                delivery and acceptance
        the PS a PSP                      applications to the NPC            • Cardholder pays the
        application                       or to a purchase                     vendor
      • PS forwards to RCC                cardholder at the RCC
                                                                             • RCC staff update the
        management                      • PS and partner notified if           contact database
                                          the application is denied




Source: OIG




                                                   4
U.S. Department of Commerce                                                                    Final Report OIG-11-013-A
Office of Inspector General                                                                            November 18, 2010


Although the bureau launched PSP in May 2009, most regions did not begin spending until July.
The volume of Direct Partner Support purchases increased significantly between August and
December 2009. The NPC began processing Special Initiatives purchases in late August 2009.
While our audit included FY2009 and FY2010 purchases, the majority of the transactions
selected and records examined apply to FY2009.
We identified cases in which partners, employees, and purchase cardholders did not act in
accordance with federal and bureau purchase policies and did not follow procedures properly.
We found a broad range of types of noncompliance in several regions, including the following
examples:
     •    Purchase cardholders failed to comply with policy by paying intermediary vendors with
          the understanding that the vendor receiving the payment would forward funds to the
          vendor providing the products and services. We identified 11 payments totaling $25,713
          that showed no affiliation between the vendors that provided the products or services and
          those that received the payments. In 10 cases, a vendor that did not have a terminal on
          which to run credit transactions processed the purchase using a neighboring business’s
          credit card terminal.5 Although it is permissible for parent companies and affiliates to
          process charges on vendors’ behalf, purchase cardholders should not pay vendors that did
          not provide products or services. For example, rather than running transactions on
          another vendor's terminal, if the vendors providing the products or services do not have
          terminals of their own, they should be paid using convenience checks. If an unexpected
          charge appears on the cardholder’s statement or on the CPCS purchase log, the
          cardholder should dispute the charge.
     •    In one region, partnership staff placed a large order (for 23,000 t-shirts to be distributed
          at concerts) before obtaining the proper written approval. The regional director signed the
          required order form weeks after—and the contracting officer signed the purchase order
          months after—the staff received the t-shirts. While written justification for not complying
          with contractor selection and acquisition requirements6 had been included in the files, it
          was dated over 50 days after the shirts had been received. Without an approved purchase
          order, NPC’s finance staff could not legally pay the contractor for the products, even
          though the region had already accepted them. In the future, controls should be in place to
          ensure purchases and other significant events are authorized and executed only by
          cardholders and authorizing officials.7
     •    Of the FY2009 purchase card transactions coded to PSP, we identified 171 occurrences
          of cardholders placing multiple orders with the same vendor on the same day for very
          similar products, which if combined were well above the $3,000 micro-purchase limit.
          For example, on one business day seven cardholders in one region incurred
          86 transactions, each below the $3,000 threshold, which resulted in a vendor receiving

5
  One of the 11 payments we reviewed was to a third party processor (in this case, Google™), which is an allowable practice in
certain circumstances and when documented in compliance with Department policy. The Commerce Acquisition Manual, Ch.
1313.301, requires the following documentation: merchant name, third party processor name, transaction amount, and a brief
statement explaining why it was necessary to purchase the product or service from that merchant.
6
  According to the justification for not complying, the partner needed the t-shirts quickly so they could be distributed at three
concerts in July and August 2009.
7
  Department of Commerce, Office of Financial Management. Accounting Principles and Standards Handbook, Section 6.0.03.



                                                                5
U.S. Department of Commerce                                                                       Final Report OIG-11-013-A
Office of Inspector General                                                                               November 18, 2010


          $91,000 for promotional items. The bureau’s position is that this did not break the law or
          Department policy because the purchases represent unique orders that happen to have
          been acquired from the same vendor on the same day. Based on a legal review of this
          issue, we determined the fragmentation of promotional item requirements into micro-
          purchases is likely inappropriate because in many instances the bureau placed
          consecutive orders with the same vendor for very similar products, which, if combined,
          were well above $3,000. Although the acquisition regulations permit use of streamlined
          procedures for filling needs below a purchase threshold of $3,000, the acquisition of
          items above $3,000 is subject to additional financial controls and competitive procedures
          to protect the government’s interests. Purchase cardholders should follow the Commerce
          Acquisition Manual (CAM), which requires that cardholders comply with spending limits
          and not “split requirements.” 8 Also, incurring repeated small-dollar charges, as occurred
          frequently with the PSP, potentially goes against one of the purposes of simplified
          acquisitions, which is to minimize administrative costs.
     •    An apparent conflict of interest between a partner and a vendor was discovered after the
          partner, rather than the cardholder, had already ordered the products. The partner and the
          vendor that provided the promotional items are brothers and share office space. Between
          September 11 and November 2, 2009, this vendor received three orders for multiple
          partners totaling almost $9,000 in PSP purchases. Although the micro-purchase card rules
          allow flexibility, the Commerce Acquisition Regulation (CAR) and the Federal
          Acquisition Regulation (FAR) require that the contractor disclose actual or potential
          organizational conflicts of interest, even when the award has already been made.9 In this
          case, however, the vendor did not follow this requirement. As part of partnership program
          training in future decennials, management should remind partnership staff with
          procurement and acquisition responsibilities to be alert for potential conflicts of interest.
          Only cardholders, not partners, should place orders.
     •    Purchase cardholders sometimes sent to the vendor, by fax, the purchase card account
          number, card expiration date, name on the card, and three-digit security code on the back
          of the card. Purchase cardholders had little to no assurance that the vendor would keep
          this information confidential. Although purchase card accounts that were obtained
          specifically for PSP have been deactivated, in the future purchase cardholders should
          better safeguard account information.
     •    Partnership staff did not consistently follow PSP business processes and guidelines
          regarding disbursement of program funds and limits on partner participation, resulting in
          32 partners in three regions receiving products and services above the amount allowed;
          partnership staff in the field did not consistently forward the necessary documentation to
          purchase cardholders, causing delays in processing requests; and some cardholders paid
          in advance for goods and services, which in most cases does not comply with Department
          policies. We reviewed documents—such as packing lists, receiving reports, photographs,

8
 CAM, Ch. 1313.301 §3.1 and appendix A.
9
 CAR §§ 1309.507-2(a), 1352.209-71; FAR Subpart 9.5. Under FAR, an “organizational conflict of interest” may arise when,
due to other activities or relationships with other persons, a person is unable or potentially unable to render impartial assistance or
advice to the government, the person’s objectivity in performing the contract work is or might be otherwise impaired, or the
person has an unfair competitive advantage. FAR § 2.101.


                                                                  6
U.S. Department of Commerce                                                Final Report OIG-11-013-A
Office of Inspector General                                                        November 18, 2010


        and e-mail—related to those purchases we audited that had been paid in advance. Our
        review demonstrated that the products or services had either been received or were in the
        process of being received. Cardholders should not pay without ensuring receipt and
        acceptance of goods and services. Also, regions should ensure their cardholders do not
        pay for products and services in advance.


III. Training on Procurement Processes Needs Improvement
The bureau offered training to partnership staff in the regions and to those responsible for
administering the program in May and October 2009. Twenty-one of the 47 cardholders in the
RCCs who had PSP purchasing responsibilities attended the training on May 20, 2009. The
25 purchasing agents and four clerks in the NPC Partnership Procurement Unit were trained on
July 1, 2009. Some of the regional managers who were not purchase cardholders but were
responsible for reviewing and approving program expenditures attended training. Their presence,
while valuable, was not the focus of our evaluation of the training.
These training sessions were not adequate to ensure all Census staff understood the program and
its purchasing processes. We interviewed two deputy regional directors, three assistant regional
census managers, and 12 purchase cardholders to determine whether they understood the
allowable uses of PSP funds, purchase card procedures, and acquisition requirements. Eight of
the cardholders did not have previous government purchase card experience. The inexperienced
cardholders at the RCCs believed the training was insufficient.
There were rapid changes in how the program operated and little time for the bureau to respond
with appropriate training and communication to its field staff. Although written guidance was
distributed to purchase cardholders, some of the content was unclear or misunderstood. For
instance, cardholders found the guidance on split purchases lacked clarity. The bureau also did
not anticipate some of the scenarios and challenges of using purchase cards to expedite payments
for the program, many of which were described in finding II. Initial PSP training may have
excluded topics and specific guidance that the cardholders needed. As a result, purchase
cardholders in the regions felt after the initial training that it was left to them to figure out how to
process PSP transactions.
Census created a business process model in which NPC purchasing agents would process PSP
purchases for 11 of the 12 RCCs. (One RCC opted out of this model.) The NPC purchasing
agents were in place and functioning later than expected, leaving an even shorter window of time
for the RCCs to use their portion of the $10 million allocated to the program in FY2009. As a
result, 7 of the 12 RCCs processed the majority of FY2009 micro-purchases locally and the NPC
staff was underutilized.
Recognizing that some topics were either overlooked or inadequately covered in the first round
of training, the bureau responded by conducting another training session on October 14, 2009.
Staff we interviewed following that training felt it was especially relevant and an improvement
compared to the initial training.
To improve training for future outreach programs, the bureau should ensure training is timely
and includes topics such as vendor selection (for example, rather than using the same vendor
repeatedly to provide a good/service, widen the pool and purchase from other vendors), split


                                                   7
U.S. Department of Commerce                                             Final Report OIG-11-013-A
Office of Inspector General                                                     November 18, 2010


purchases, conflicts of interest, and the other procedural issues we have addressed in this report.
Census training should also provide updated step-by-step instructions on processing transactions
from beginning to end. It should include internal control requirements in written manuals and
desk procedures.




                                                 8
U.S. Department of Commerce                                              Final Report OIG-11-013-A
Office of Inspector General                                                      November 18, 2010


                        Recommendations: Looking Ahead to 2020

The final PSP promotional item was approved in May 2010. The next opportunity to implement
a promotional outreach program like PSP will occur during the 2020 decennial, and it is critical
that Census acknowledge the problems that occurred in 2010 in order to plan and operate more
effectively for the next decennial. We recommend the following for a 2020 promotional outreach
program:
   1. Ensure that manual and automated tracking systems are fully functional and integrated,
      and reconciliation with the financial accounting system is in place prior to program
      implementation. Make available to managers in the regions financial reports that will
      allow them to compare actual program purchases to the budget so that they and their
      partnership staff can spend the amount allocated within the expected time frame.
   2. Improve management oversight of purchase card purchases to identify staff non-
      compliance with policies and procedures for both purchase cardholders and partnership
      staff. Staff responsible for reviewing and approving program applications should ensure
      that products and services closely align with the program’s objectives. Managers in the
      regions with supervisory authority, such as assistant regional census managers and
      partnership coordinators, should be held accountable for and enforce compliance. Finally,
      create a policy stating that employees must comply with program guidelines or face
      disciplinary action, including suspension and termination, and communicate these
      expectations to employees. Enforce written policies limiting Direct Partner Support
      purchases to $3,000 per vendor per purchase.
   3. Conduct timely training that reemphasizes federal and Commerce acquisition rules, such
      as split purchases, conflicts of interests, and other procedural rules; and provide manuals
      with updates and step-by-step instructions.

When reviewing PSP files in several RCCs, we observed a few practices that indicated Census
field staff had taken the initiative to implement and follow quality assurance standards. Census
can take practices such as these into consideration when developing future PSP training
programs, processes, and procedures:
   •   In its PSP files, one RCC included reports from Census’s integrated partnership contact
       database. The reports indicate whether the partner is active and eligible to participate in
       the program. This demonstrates that the partnership staff updated the database as
       management intended.
   •   Another RCC created and sent to vendors a letter confirming and authorizing production
       of promotional items funded by PSP. The letter described the terms and conditions of the
       order, including a statement that the bureau is a federal agency and payment will be
       rendered after the product is received and verified. Regional staff, the cardholder, and the
       vendor signed the letter.
   • The supervisor at the Partnership Procurement Unit required NPC purchasing agents to
       use a checklist and include it in their Direct Partner Support files. The checklist is an
       administrative tool reminding the purchasing agents of the documents to obtain and steps


                                                 9
U.S. Department of Commerce                                         Final Report OIG-11-013-A
Office of Inspector General                                                 November 18, 2010


      to follow. The checklist helps to ensure the information and documents required to
      complete a purchase are received.




                                             10
U.S. Department of Commerce                                            Final Report OIG-11-013-A
Office of Inspector General                                                    November 18, 2010


                   Summary of Census Comments and OIG Response

In its response to our draft report, Census did not dispute our findings and recommendations. The
bureau provided additional information related to the first audit finding and made general
comments about the second and third findings:
   1. With respect to our finding that the multiple reports and systems used for the PSP
      program did not reconcile, Census stated that all approved PSP transactions were entered
      into the Integrated Partner Contact Database (IPCD) and that these transactions were then
      compared to reports generated by two Commerce systems.
   2. In our second finding, regarding compliance with federal acquisition and financial
      requirements, Census stated that third party payers were utilized and acquisitions
      completed in compliance with CAM 1313.301. The predominant third party payers used
      were Paypal™ and Google, and Census requested that we include the number of
      incidents in relation to the total number of charges made.
   3. Census clarified that some of the regional managers attended purchase card training; we
      have added that information to the body of the report.


The full Census response is included as appendix B of this report.


OIG Response
We considered the bureau’s response in preparing this final report and made a few modifications
to the details of the report. However, we reaffirm our findings and recommendations.
Specifically, with respect to the first finding, Census stated that reports generated by two
Commerce systems are compared to purchases from the IPCD. Our review found that the IPCD
was not consistently updated and PSP transactions were sometimes not recorded in the IPCD.
Our analysis of IPCD information for 15 partners with promotional item purchases found
transaction information for only 2 of the 15 partners in the database. Our review also found
incorrectly coded transactions in the Commerce purchase card system. Therefore, Census’s
requirement to enter promotional item purchases into the IPCD and compare transaction codes
from multiple systems does not constitute a strong internal control.
We continue to maintain that Census did not fully comply with CAM 1313.301. Purchase
cardholder files did not, as required by the CAM, “…document the purchase card file with the
name of the merchant, the name of the third-party processor, the amount of the transaction, and a
brief statement explaining why it was necessary to purchase the product or service from that
merchant.” We have included the number of transactions in which this requirement was not
followed in the body of the report.




                                               11
U.S. Department of Commerce                                            Final Report OIG-11-013-A
Office of Inspector General                                                    November 18, 2010


                    Appendix A: Objectives, Scope, and Methodology


The objectives of the audit were to determine whether (1) Census Bureau employees effectively
managed Partner Support Program (PSP) purchases to prevent fraud, waste, and abuse;
(2) bureau employees correctly followed PSP procedures; and (3) employees responsible for
administering the program were adequately trained.
We used the region-specific partnership plans; policies, procedures, and other written guidance
the bureau disseminated to its staff; information from interviews; and procurement records in
PSP files to evaluate the PSP proposal process, gain an understanding of Census purchase card
and purchase order policies and procedures, and identify oversight or monitoring controls over
purchase card transactions and purchase orders. We worked with the bureau’s two agency
program coordinators and with two staff at the Bankcard Center to understand how they manage
the bureau’s purchase card program and monitor transactions.
We interviewed staff at the National Processing Center (NPC), and at the Seattle, Philadelphia,
New York, Chicago, and Los Angeles regional census centers (RCCs). We conducted file
reviews onsite at the NPC, Philadelphia, New York, Chicago, and Los Angeles RCCs. We
obtained and scrutinized the PowerPoint® slides and other written guidance distributed to
purchase cardholders at training, and evaluated whether the content of the written materials was
adequate.
To determine the regions to include in the site visits, we considered the amount allocated to each
region—focusing on the regions with the highest PSP budget and regions with significant hard-
to-count populations. We included the NPC because business process flow charts provided by
the bureau indicated the NPC would handle Direct Partner Support purchases for 11 of the 12
regions. The Los Angeles RCC opted out of this model up front, deciding it would use regionally
held purchase cards for micro-purchases initiated in its region.


Direct Partner Support Purchases
We determined that the computer generated data provided in the Commerce Purchase Card
System (CPCS) was reliable, accurate, and complete by comparing payments the Census Finance
Division disbursed to the bank to the purchase card charges in the CPCS transaction data we
received from the bureau’s Acquisition staff. As we reviewed transactions we observed that the
information such as the vendor name, purchase or transaction date, and amount as cited on
source documents agreed to CPCS.
Using computer-aided audit techniques, we analyzed the purchase card data and identified the
highest risk transactions for review. Our transaction selection methodology involved applying
fraud indicators to the population of purchase card charges to identify possible improper
expenditures. Specifically, we considered purchases made on holidays and weekends, online
purchases and purchases from third party billing services such as Paypal and Google, unusual
vendor names and unexpected vendor category codes, transactions near the micro-purchase limit,
multiple credits to the same vendor, convenience checks, multiple transactions with the same
vendor and on the same purchase date, and even purchases in $50 increments. Included in the



                                               12
U.S. Department of Commerce                                                          Final Report OIG-11-013-A
Office of Inspector General                                                                  November 18, 2010


228 transactions reviewed were the purchases with the highest number of hits on the fraud
indicators.10 We did not use a statistical sample.


Special Initiatives Purchases
Procurement staff at the NPC and at Census headquarters provided scanned images of the
purchase orders. We judgmentally selected 13 orders, valued at $868,443.66 in obligated funds.
We included in the review purchase orders exceeding $50,000 and to contractors whose
names are unfamiliar and in our judgment are unusual given the types of purchases we expect for
the program.


Internal Controls and Compliance with Laws and Regulations
Our audit included an evaluation of the bureau’s internal controls and compliance with laws and
regulations as they relate to simplified acquisition procedures, financial management and
procurement. Key criteria we considered in conducting the audit included Federal Acquisition
Regulation Parts 7 and 13, Office of Management and Budget Circular No. 123 appendix B,
General Accounting Office (GAO) - Audit Guide - Auditing and Investigating the Internal
Control of Government Purchase Card Programs GAO-03-678G (2003), Commerce Acquisition
Manual 1313.301, Commerce Office of Financial Management Cash Management Policies and
Procedures Handbook and Accounting Principles and Standards Handbook, and program
guidance disseminated by Census headquarters. We obtained an understanding of the
management controls over program purchases by interviewing managers and purchase
cardholders and reviewing policies and procedures. We met our audit objectives by testing
transactions.


Audit Authority
The audit was conducted under the authority of the Inspector General Act of 1978, as amended,
and Department Organization Order 10-13, dated August 31, 2006. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.




10
     We reviewed 213 out of 3,268 FY2009 transactions, and 15 transactions from the first quarter of FY2010.


                                                          13
U.S. Department of Commerce                                 Final Report OIG-11-013-A
Office of Inspector General                                         November 18, 2010


                              Appendix B: Bureau Response




                                          14
U.S. Department of Commerce        Final Report OIG-11-013-A
Office of Inspector General                November 18, 2010




(OAE-19782)



                              15
